        . (...
!,: ";;. -.
   ..




                 DRG 79: RESPIRATORY INFECTION




                 t"VICES.




          '0



                 i"d3a



         OFFICE OF INSPECTOR GENERAL
         OFFICE OF ANALYSIS AN INSPECTIONS
         OAI- 12- 8801190                    JULY 1989
, ,





                               OFFICE OF INSPECTOR GENERAL

        The mission of the Offce of Inspetor Genera (OIG) is to promote the effciency, effective- ,
        ness, and integrty of progrs in the United States Deparent of Health and Human Ser­
        vices (HS). It does this by developing methods to detet and prevent fraud, waste, and
        abuse. Crate by statute in 1976, the Inspetor General keeps both the Seceta and the Con­
        gress fully and curently inormed about programs or management problems and reommends
        corrtive action. The OIG perform its mission by conductig audits, investigations, and in­
        spections with approxiately 1,200 sta strategically located around the countr.


                          OFFICE OF ANALYSIS AND INSPECTIONS

        Ths repon is prouced by the Offce of Analysis and   Inspections (OAl, one of the thee
         major offces with the OIG. The other two ar the Offce of Audit and the Offce ofInvesti­
       . gations. The OAI conducts inspections which are" tyicaly, shon-term studies designed to de­
       . terme progr effective!less, effciency, and vulerabilty to frud or abuse. '

        This inspection was conducted to analyze the charcteristics of discharges paid as DRG79.
        The repon was prepared by BOTEC Analysis of Cabridge, MA under contract HH- l00- 88-
        0019 and the Offce of Analysis and Inspections, Health Cae Branch. The followig people
        pancipated in this project.

        David Stone, M. A., BOTEC Analysis

        Marcia Meyers, M. P.A., BOTEC Analysis

        Mark Kleiman, Ph.D, BOTEC Analysis

        Jeremy Schutte, BOTEC Analysis

        Fiona Lee, M.Ed. , BOTEC Analysis

        David Hsia, J. D., M. D., M. P.H. , Health Care Branch

        Mark Krusha,t. M. P.H. , Health Care Branch'

.'
 . ,




          DRG 79: RESPIRATORY INFECTION




                        RICHARD P. KUSSEROW
                         INSPECTOR GENERAL




       OAI- 12-801190                         JULY 1989
.'



                                   Contract Information€

     Contractor
                          Project Officer
     BOTEC Analysis Corporation
          David Hsia , J. , M. D., M.€
     Thid Floor                            EHR G- lO-

     36 JF Strt                            Offce of Inspector General

     Cambridge, MA 02138                   6325 Securty Boulevard€
                                          Baltimore, MD 21207
     Contract number€
     HHS- l00- 88-0019
                                                     . .. .. ...... ... ... ... ... ... .. .. .. ...
                               . . . . . . . . .. .. .                                            . .. .... ..... ..... .              """""""'" ..
                                                                                                                      .................................
                                                                                                      .. .... .. .... ... . .. .. ... .. ..... .. .. ......... .. ..,'..............
                                                                                                                        .... .... .... .... .... ..        .. ...
                                                                                                                                                  .. .... ..    ..   ... ... ....... .. ........... . . ..€
                                                                                                                                                                . .............. .                        .                                    ..
                                                                                                                                                                                 .... ..... .... .... .... .... ... .... .... .... .... .... ...      ..
                                                                                                                                                                                                                                                      ... ........ .
                                                                                                                                                                                                                                               . .... .            ...




                                                                                 TABLE OF CONTENTS€


            EXECUTIV SUMARY€
            INTRODUCTION..................................................... .€
            BACKGROUN........................................€
                 PPS vulnerabilties. . . . . . . . . .. .. .
                 Clais processing. 

                 DRG 79 ............................................................

            METHODOLOGY. . . . . . . €
            FININGS. . .                                                                                                                                                   . . . . . . . . . . . . . . . . . . . . . . .4€
                 Sample charcteristics. . . . . . .                                                                                                                                                                                        . . . . . . .4€
                Assignent errors. . . €
                Dirtion of errrs. .
                 Soureoferrors ......................................................

                Reasons for errors. . 

                Financia effects. . . . . . . . €
                Corrt DRG assignment. . . . . .. €
                Clinical review results. . . . . . . . . . . . . . . . €
            RECOMMNDATIONS. . . . €
            Appendi A- I: DRG 79 discharges from all PPS hospitals. . . . . . . . . . . . . . . . . .. .. A-

            Appendi A- 2: DRG 79 sampling frame.                                                                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-
            Appendi A- 3: DRG 79 hospital demography. . . .. . . . . . . . . . . . . . . . . . . . .                                                                                                                               . . . . .. A-
            Appendi A- 4: DRG 79 hospita demogrphy comparson. . . . . . . . . . . . . . . . . . . .. A-

            Appendi A-
5: DRG 79 patient demo
            Appendi A- 6: DRG 79 patient demogrphy comparson. . . . . . . . . . . . . . . . . . . . .. A-

            Appendi B- 1: DRG 79 errors. . . . . . . . . . . . . . . . . €

            Appendi B- 2: DRG 79 errors comparson. . . .

            Appendix B- 3: DRG 79 errors by patient demogrphy. . . . €
            AppendiC- l:DRG79diectionoferrors €
            Appendix C- 2: DRG 79 diection of errors comparson......                                                                                                                  €
            Appendix C- 3:    DRG 79 diection of errors by patient demography. . . . . . €
, .   ,,                                                                 .............................
                                                                                     . . . .. . . . . . . . . . . . . ...
                                                                                          . . . . .......
                                                                                                  . . . . . . .. . . . . . . . . .




           Appendix D- l: DRG 79 hospital deparent makng error. . . . . . . .. . . . . . . . . .. .. D-
           Appendi D- 2: DRG 79 hospita deparent makng error comparson. . . . . .                                     . . . .. D-
           Appendix D- 3: DRG 79 hospita deparent makng error by patient demogrphy. . D-
           Appendix E- l:     DRG 79 reasons for errors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
           Appendix E- 2: DRG 79 reasons for errors by hospita demography. . . . . . . . .
           Appendix E- 3:     DRG 79 reasons for errors comparson. . . . . 

           Appendix E-4: DRG 79 reasons for errors by patient demography. . . . . . . . . . . . . . . .


           Appendix F- l: DRG 79 corrted relative weights. . . . . . . . .
           Appendi F-2: DRG 79 corrted               reimbursement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . F-

           AppendixF- 3: DRG79 estiated cost of errors
           Appendix G- l: Corrct MDC for discharges miscoded to DRG 79 . . . . . . . . . . . . . .. G-
           Appendi G- 2:       Corrt DRG for discharges miscoded to DRG 79                                       . . . . . . . G-
           Appendix G- 3: Prncipal diagnoses correctly biled as DRG 79
                                                                                             ................. G-
           Appendi G- 4:       Prcipal diagnoses incorrectly biled as DRG 79 ...............                                    G-
           Appendix H- l: DRG 79 clinical review. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. H-€
           Appendi H- 2: DRG 79 clinical review comparson. . . . . . . .
                                                                         . . . . . . . . . . . . . . . . .. H-
                                          EXECUTIVE SUMMARY


BACKGROUND

Under the prospective payment system , the diagnosis relate group (DRG) 79 represents
respirtory inections. This inspection determnes the accuracy of bilings to Medcare for
DRG 79.

FINDINGS

      Weighted by discharges, 17.4 percent of bils paid as DRG 79 should have been
      assigned to a diferent DRG. This error rate parallels the incidence for al DRGs as
      measur by the National DRG Valdation Study.
      Hospitas overpaid themselves on          all discharges incorrectly biled to DRG 79. Ths rate
      signcantly exceeds the 59. 6          percent rate for all DRGs in the National DRG Validation
     Study.
     Mis-specifcation of the principal diagnosis by the attending physician caused the most
     errors. "Other" errors occur second most frequently.
     These bils should grouppricipaly to DRGs for respiratory or otolarngological
     disorders. Bettr medcal histories, diagnostic testing, or understading of codg
     crteria would avoid such errors.

RECOMMENDATIONS

     The Health Care Financing Admistrtion (HCFA) should dict the peer review
     organzations (PROs) to review more DRG 79 bils for codng accuracy.
     The HCF A should diect the PROs to educate physicians and hospitals about the proper
     codng of DRG 79.
     The HCFA should                dit
                             the PROs to discourage the use of unnecessarly nonspecifc
     disease codes in bils for respirtory diseases.




The HCFA disagrees with the fist recommendation and agrs with the remaining recommen­
dations. The Offce of Inspector General modfied this repon in light of the HCFA comments,
but contiues to believe that full implementation of all its recommendations would reoup a
projected $89.3 mion in overpayments for Fiscal Year 1990.
".   ' (€




                                                  INTRODUCTION


            BACKGROUND

            On October 1   1983, the Health Car Financing Admistration (HCFA) began implementing
            new system of payment for inpatient hospita services under the Medcar program. The new
            prospective payment system (PPS) replaced the cost- based reimbursement system. Congrss
            mandate this change because of rapid growth in health care costs, pancularly inpatient ex-
            penses under Medcare.

            Under PPS, hospitas reeived a     pre-established payment for each discharge, based upon the
            diagnosis related group (DRG) to which the dischare is assigned The PPS classifed dis-
            charges into clicaly   coherent   groups which used simiar amounts of hospita resources,
            based on varables such as diagnosis; evaluation and tratment procedurs; and patient age,
            sex , and discharge status. Each of the 473 DRGs had an associate relative weight, which rep-
            resented the average cost for hospita car provided to patients with diagnoses grouping to that
            DRG as a proponion of the cost of the average patient. The hospital received ths payment , in-
            dependent of the actual length of hospitaization or cost of treatment for the individual patient.
            The hospita retaned any surlus frm patients consumig less than the expected amount of
            resoures, and suffere losses on those patients consumig more.


            The shit from cost- based, retrospective reimbursement to prospective payment constituted
            one of the most dramatic changes in health care reimbursement since the creation of Medcare.
            A fied payment per discharge induced hospitals to implement economies and reuce unneces-
            sar servces. The total payments to the hospitas provided the same financial resources for pa-
            tient car. In effect, PPS reversed the financial incentives for hospitas. Where the
            cost-reimburement system rewarded longer hospital stays and more costly treatments , PPS re-
            warded earlier discharges and less costly procedures. One of the first consequences of the
            new payment system was a drop in average length of hospita stay for Medicar patients.

            PPS vulnerabilities

            The advent of PPS created new opponunities for manipulation or "gamng " to increase hospi-
            tal revenues frm Medcar patients. To protect the integrty of PPS and maintan quality of
            care Congress established the peer review organizations (PROs) to monitor hospital activities.

            The Offce of the Inspector General (OIG) conducted the National DRG Valdation Study
            (NDRGVS) to surey the general accuracy of DRG assignment and quality of care performed
            by hospitas under PPS. Its examnation of 700 medcal records established that assignment
            errors resulted in $300 milion in overpayments to hospitals and that the majority of overpay-
            ments could be trced to assignment errrs afectig a small number of DRGs. This repon is
            one in a series examing assignment accurcy of one of the DRGs identified as having the
            highest impact on overpayments under PPS and the gratest potential for cost recovery.
, ,€   . "




             The PPS gamg takes two principal forms: optimization and crep. "Optimization " strate-
             gies adhere to codg rules, but maximze hospita reimbursements by selectig the most ex-
             pensive among viable alternative principal diagnoses or adding more secondar diagnoses.
             The PPS permts optimization, which flows from the basic incentive strcture of the PPS sys-
             tem.

              DRG crp " results from codg practices which do not conform to codg rules. Sources of
             DRG crep include:
                        Mis-specifcation:   The attendig physician wrtes an incorrect principal
                        diagnosis (defined by the Uniform Hospital Discharge Data Set (UDS)€
                          that condition established after study to be chiefly responsible for occasioning€
                        the adssion of the patient to the hospital for care ), seconda diagnoses, or
                        procedures on the attestation sheet.
                            Miscoding:      The hospita assigns incorrct numeric codes to   diseases or
                            proedures correctly attested to by the attending physician.
                            Resequencing:  The hospital substitutes a secondar diagnosis for the correct€
                            principal diagnosis.€
             Auditig and review practices seek to cunail ilegal crp by        identiying discharges in which
             codg rules are misapplied or ignored.
             Claims processing

             Under PPS, the hospita files a clai for Medicare reimbursement upon discharging the benefi­
             ciar. At the tie of discharge , the attending physician attests to the pricipal diagnosis which€
             caused the patient s admssion to the hospita, seconda diagnoses, and procedurs (diagnos-€
             tic and therapeutic) provided. The hospita trslates the nartive diagnoses of the€
             physician s attestation statement into numeric codes based on the International Classification€
             of Diseases, Ninth Revision , Clincal Modcation (lCD- CM), and prepars a claim. Fiscal
             intermedar (PI) organzations, working under contract with HCFA , enter the hospital' s codes
             into the GROUPER computer progr which assigns the appropriate DRG for reimbursement.€

             Hospita reimbursement is calculated by multiplying the "relative weight" of each DRG cate-
             gory by a   stadadi amount, as modfied by cenan hospital-specifc factors. The relative€
             weight of each DRG vares above or below 1.00 accordig to the average amount of hospi-
             ta resoures used by patients  in that diagnostic grup. The higher the relative weight, the
             greater the reimburement. Mis-assignment of the ICD- CM categories , or erroneous assign­
             ment or sequencing of patient diagnoses, can thus have significant financial implications.

             DRG 79€

             Under the prospective payment system, the DRG 79 represents major respiratory infections€
             such as tuberculosis, klebsiella pneumonia , pseudomonas pneumonia, staphylococcal pneumo-€
             nia, and aspiration pneumonitis. It does not pay for discharges grouping to the DRGs for sim­
             ple pneumonia, bronchitis, respiratory failure, chronic obstrctive pulmonar disease, pleura€
..




      effusion , or lung cancer. These DRGs may be present with superfcially similar symptoms€
      but actualy have entiely dierent underlying causes, prognoses, and    resource consumption.
      Cena abscesses, parasites, and toxic injuries to the lung also fall under DRG 79.
                                            DRG 79€

                                                                                Relative Weight
                                                                            "* Discharges   (10 K)
                                                                            -a Charges ($ 100M)
                                                                            .. Payment ($100 M)
                                                                            '* Mean payment ($ 1 K)




             1984           1985            1986        1987        1988€
                                         Fiscal Year

     This study examnes erroneous assignment and gamng in a single DRG: 79, respiratory infec-€
     tion. Ths DRG appear pancularly vulnerable to mis-assignment due to its high relative€
     weight (1.7795) and its high ratio of overpayments. (Appendix A- I). Subsequent to the period€
     examned by tls study and effective Fiscal Year (F) 1988, the HCFA altered DRG 79 to de-
     lete age over 69 years as a qualfying criterion , excluded cenai complication codes, and cr-
     ated a new DRG for ventiator patients. These changes slightly reduce the number of€
     discharges gruping to DRG 79.€

     METHODOLOGY€

     Ths study used a strtied two-stage sampling design based on hospitals to select medcal
     records for review. The fist stage used simple random sampling without replacement to se-
     lect up to 80 hospitas in each of thee be size strata: Less than 100 bes (smal),   100 to 299
     beds (medum), and 300 or more bed (large). The second stage of the design employed sys-



          Figure    2:   Sample Design
                                                       , 1985.I2
     tematic radom sampling to select up to 25 DRG 79 bils from each strata for Medicare dis-
     charges between October 1 , 1984 and Marh 31

                                                                                        -:100€

                                                                                i2 100-299
                                                                                        300+€




            DRG 79                                     All DRGs
The DIG contrcted with the Health Data Institute (HI)                              of Lexington , Massachusetts to
reabstrct the medcal records. Upon reeipt, the contrctor " blinded" the ICD- CM codes
by coverig them, and assigned an identication number to eachrecord. An Accrted
Record Technician or Registere Record Admnistrtor proficient in ICD- CM codng re-
viewed the entie record to substatiate the pricipal diagnosis, other diagnoses, and                                                  proe­
dures indicated by the attending physician in the narative attestation form. Any reords
which did not suppon the assigned DRG classification were referred to physician reviewers.
The physician reviewers designated the corrt Uniorm Hospita Discharge Data Set pricipal
diagnosis, and addtional diagnoses and/or proedures which were substantiated by the patient
records. The GROUPER computer program proessed the reabstracte ICD- CM codes to
determne corrt DRGs. A full discussion of the methodology and fmdings of the contractor
record review is avaiable in the fmal repon of the National DRG Validation Study (avaiable
from DIG Public Affais).

The DIG contrcted with BOTEC Analysis of Cambridge , MA to examne this data to identify
sources of assignment errors and make recommendations for recovery of overpayments.

FINDINGS

Sample characteristis


In FY 1985. 56, 705 of the 8. 3 milion prospective payment discharges (0. 7 percent) grouped
to DRG 79. The National DRG Valdation Study estimates that they came principally frm
large and medum siz hospitas. In the first hal of FY 1985, the 239 hospitas selected in
stage-one of the sample design (the sampling frame) biled for 222 396 discharges of which
  432 came from DRG 79. (Appendix A- 2).

                                    Figure         3:   Hospital Demography

                                                                                                                               Yes
               DRG 79: Urban
             All DRGs: Urban


            DRG 79: Teaching
           All DRGs: Teaching


               DRG 79: Profit
                                 m.--.............................--m".-m"'''''.''''''''''''''''.''''''''''''mm...--.
              All DRGs: Profit   h".....-...................--_m h--m_m".-m-................................'''umm....
                                                                                                                         100

                                                                   Percent


Additionaly, the two-stage sample design permts calculation of separate results for Medcar
beneficiares (the probabilty of something happening to a person) and hospitals (the odds of
an event at a pancular hospita). Therefore, the appendices, tables , and chars repon individ­
ual totals weighted by both discharges and hospitals.
!'




     The majority of DRG 79 discharges, reflecte both in the sample numbers and in the dis-
     charge-weighted percentages, were from urban, nonteaching, and nonprofit hospitas.
     (Appendi A- 3). For each hospita type, the discharge-weighted percentage miore those in
     the National DRG Valdation Study. (Appendix A- 4).

     The DRG 79 discharges were, on average, older, male, longer staying, and more expensive€
     than discharges from either the National DRG Validation Study or the Medcare population.€
     (Appendi A- 5). There were no instances of monaity in the DRG 79 sample.€
     (Appendi A- 6).€

     Assignment errors

     Weighted by dicharges, 17. 2 percent of bils paid as DRG 79 grouped to a different DRG
     after reabstrction. Assignment errors (33. 3 percent) occured more frequently in sma
     hospitas ' bils for DRG 79 than for all DRGs (23. 6 percent).

                                            Patint Demographics

                                    DRG 79           National DRG             All
                                                     Validation Study         Medicare
                   Age (years)      77.                    73.                not available
                   Sex (% male)     54.                    46.                42.
                   LOS (days)       11.
                   Payment ($)      5205.                  3150.              2985 Urban
                                                                              2381 Rural
                    Mortalijy (%j                                             not available


     In hospitas of 300+ beds, the 8. 0 percent, discharge-weighted rate of assignment errors for
     DRG 79 was less than half the 16. 6 percent reponed in the National DRG Validation Study.
     (Appendi Bel).

                                            Coding Errors

                           Pecent

                                                                        DDRG79
                                                                        IZ   AI DRGs




                                    .'00          '00'"
                                                 Be ,..



     Urban, nonteaching, and nonprofit hospitas had significantly higher percentages of errors
     than did theirru,  teaching, and for-profit counterpars. However, as a percent of the tota
     discharges, none had an error rate above 16 percent. Comparson to the hospita demograph-
, ,




      ics for all discharges reveals that only urban hospitals have a higher error rate for DRG 79
      than for al DRGs. (Appendi B-2).

      Discharges incorrtly paid as   DRG 79 had a slightly older average age (78. 7 years versus
      77.4 .years), lower proponion of males, and much shoner lengths of stay than those assigned
      corrtly. In the case of length of stay, the disparty was most pronounced in large hospitas
      where those incorrtly assigned as DRG 79 had average stays of 4. 5 days whie those as-



      discharges assigned corrtly. (Appendi B-

               Percnt
                                                    3).
      signed correctly averaged stays of 13 days. In the case of average payment, in both smal and
      medum size hospitas, payment for discharges assigned incorrectly exceeed payment for

                                        Direction of Errors

                                                                              DRG 79: Overpymen'€
                                                                         I1 DRG 79: Underpaymen'
                             r/:
                                                                         IZ   National DRG:   Over
                                                                              National DRG: Under€




                            dOC           10029            300.€
                                         Bed size
      Direction of errors

      As indicated, all of the errors in DRG 79 resulte in overpayments to hospitas.
      (Appendi C- l). The National DRG Valdation Study found that only 61 percent of the errors
      resulte in overpayments to hospitals. (Appendix C- 2).

      Source of errors€

      The majority of errrs in DRG 79 discharges occurr when hospitals incorrtly coded the
      discharges as DRG 79 and biled it accordngly. Only 2 of the 15 errors resulted when med­
      cal record corrtly indicate a different diagnosis, but the hospita adnistrtion biled it
      DRG 79 anyway- Both of the biling errors occur in small hospitals. (Appendix D-

      Reasons for errors€

      Nartive errors by the attendig physician caused a pluralty of errors in codng to DRG 79.€
      (Appendi E- l). The remainder of the   errors divided among miscodng, resequencing, and
      other tyes of errors. (Appendi E-2). Resequencing errors occurr less often in DRG 79
      than in the National DRG Validation Study. (Appendix E- 3).€
                         ""




                     Reasonsfor Errors                                    Misspecification€

                                                                    rz    Miscoding€

                                                                    II    Resequencing€
                                                                    rz Other€
      DRG 79                              All DRGs


Discharges with resequencing errors proved to be significantly older than those subject to€
other tyes of e!Tors. Discharges with resequencing errors also had substatially higher
                                                                                          rates€
of payment. (Appendi E- 4).€

Financial effects€

After reabstrction, the average relative weight for discharges in this sample dropped from€
1.7795 to 1.5839. (Appendix F- l). For the 74 discharges in ths sample, this equalled an
faggrgate drop in relative weight of - 14.4744. Weighted by discharges , these changes imply
a 9. 7 percent decease, representing overpayments to the hospitas due to codng errors.
(Appendi F- 2).

Extrapolated to the enti Medcar population , errors in assignment to DRG 79 resulted in
$28. 3 mion of overpayments durg the study year. Mid-size hospitals were responsible
for the largest share of the overpayments. The rapid increase in DRG 79 reimburement im­
plies overpayments of $77. 6 million in FY 1989 and $89.3 millon in FY 1990.
(Appendi F- 3).

Correct DRG assignment

The DRG 79 falls into Major Diagnostic Category (MDC) 04: Respiratory diseases.
                                                                                       The cod­
ing 15 errors in ths sample spread across seven MDCs. (Appendix G-lJ. The MDC 03 (Ear€
nose , and that) accounted for 20. 0 percent of the errors. Within this MDC , all errors should
have assigned to DRG 73: Other ear, nose and thoat. This DRG has a relative weight of
0.5163, compared to the 1.7795 for DRG 79. (Appendix G- 2).€

Turning to pricipal diagnoses correctly biled to DRG 79 , aspirtion pneumonitis, klebsiella
pneumonia, pseudomonas pneumonia, and staphylococcal pneumonia appear most
                                                                                  fruently.
Interestingly, the corrt diagnoses seem less vague than incorrct diagnoses (" nonspecific,
 not otherwise specified, not elsewhere classified"). (Appendix G- 3).
, .€                    ""'"




                                                       Overpayments

                  100




                           198       1985       1986        1987       1986       1989       199
                                                         Fiscal Year


       Analyze at the level of ICD- CM codes, pulmonar disorders incorrectly biled as DRG 79
       include bronchitis , nonspecific pneumonia, nonspecifc pharngeal disease , and foreign body
       lodged in the larnx. Less understandably, volume depletion, transient ischemic attack , pan-
       creatitis, urar trct infection , coma, and observation appear among the corrected pricipal
       diagnoses for erroneous DRG 79 bils. (Appendix G- 4J.

       Clinical review results

       Only five discharges, representing 7. 8 percent of cases when weighted by discharge, were
       judged inappropriate ("an adssion in which the care received by the patient was either not
       neeed or did not require the use of the inpatient setting ). (Appendix H- IJ. This number was
       less than 10. 0 percent reponed for all DRGs. There were no cases of prematu discharges.
        (Appendi H-2J.

       Of the 74 cases in the sample, 8. 9 percent evidenced "qualty             of car not meetig profession­
       aly recogn standas. "           This rate significantly exceeded the 5. 5          percent of the National
       DRG Validation Study.
                                                 Clinical Incidence

                                                                                                   DRG79

                                                                                                   Al DRGs




                                 l.de IIUlOO
          Poo ,,!t c:
      Pr'rTUtdisdwge
!.




                                     RECOMMENDATIONS


                  The HCFA should diect the PROs to review more DRG 79 bils for codng
                  accuracy.
                  The HCF A should diect the PROs to educate physicians and hospitals about the
                  proper codng ofDRG 79.
                  The HCFA should diect the PROs to discourage the use of unnecessarly
                  nonspecifc disease codes in bils for respiratory diseases.




     The HCFA disagrees with the fist recommendation and agrs with the remaining recommen-
     dations. The Offce of Inspector General modfied ths report in light of the HCFA comments,
     but contiues to believe that full implementation of all its recommendations would recoup a
     projected $89.3 millon in overpayments for Fiscal Year 1990.
, '   ".                                                                                                            p"!



                          ePendix A-1 : DRG 79
                                                                        dischar          es     from all PPS hospitals

            Fiscal Year                                                 1984           1985           1986          1987           1988
            Relative weight                                             7982           7795           8488          9344           0777
            Number of discharges                                         830         56. 705        76, 721      101 197            757
            Total charges ($ millon)                                   206.           497.           756.          802.           055.
            Total reimbursement ($ millon)                             129.           291.           423.          591.           617.
            Average reimbursement ($)                                    807             148          515            847           192




                                                 pEmdix             2: DRG 79            sam                  frame

           Number                             Bed size
                                              ",100                    100- 299               300+                Total
           Medicare population                       434                 398                     873              56, 705
           Sampling frame                     145                     423                     864                 1432
           Sampled
           Sampling fraction (%)              (16.                    (5.                     (2.                 (5.




                                     ePendix A- 3: DRG 79 hospital                                  demog

           Number                Bed size                                                              Wei hted ercenta
           (Percent)                0( 1 00               1 00- 299             300+           Tota    Sample Discharge Hosita
           Urban€                   6 (25.                17 (68.           23 (92.                       (62.          (70.         (49.
           Rural€                  18 (75.                 8 (32.               2 ( 8.                    (37,          (29.         (50.4)
           Teaching€                0 ( 0.                 9 (36.           13 (52.                       (29.          (36.         (20.
           Nonteaching€           24 (100)                16 (64.           12 (48.                       (70.          (63.         (80.
           Prom€                    4 (16.                 3 (12.               0 ( 0.                    ( 9.          ( 7.         (12.
           Nonprofit€             20 (83.                 22 (88.           25(100.                      (90.           (92.         (87.
           Total                  24 (100)                25 (100)          25 (100)                      (100)           (100)       (100)
,. '€




                         endix          A-4: DRG 79 hospital                    demo               comparison


        Percent                                   Bed size                              Wei hted     ercenta
                                                  ",100           100- 299     300+     Sample      Discharge Hospijal

        Urban           DRG 79                    25.             68.          92.        62.         70.       49.
                        NDRGVS                    19.             70.          94.        62.         71.       48.

        Rural           DRG 79                    75.             32.                     37.         29.       50.4
                        NDRGVS                    80,             29.                     38.         28.       52.

        Teaching        DRG 79                                    36.          52.        29.         36.       20.
                        NDRGVS                                    18.          55.        25.         31.       16.

        Non-            DRG 79                    100             64.          48.        70.         63.       80.
        teaching        NDRGVS                    97.             81.          44.        74.         68.       83.

        Prom            DRG 79                    16.             12.                                           12.
                        NDRGVS                                    17.                                   9.4     10.

        Non-            DRG 79                    83.             88.          100        90.         92,       87.
        profit          NDRGVS                    90.             82.          97.        90.         90.       89.




                                  AIYndix A-               5: DRG 79 patient            demo


                                 Bed size                                      Wei hted avera
                                 dOO              100- 299        300+         Sample   Discharge    Hospital

        Age (years)          81.                  78.             75.          78.        77.         79.
        Sex (% male)         54.                  72.             40.          55.        55.         57.
        LOS (days)                                 10.            12.          10.         11.         10.
        Payment ($)              3544             5177            5923         4899       5191        4452
        Mortalijy (%)                                             24,          12.        13.           9.4
".   (%)
     ($)




                   ndix   6: DRG 79 patient               demo            comparison


                              Bed size                           Wei hted avera
                              ",100           1 00- 299   300+   Sample Discharge Hospnal

     Age        DRG 79        81.             78.         75.      78.       77.    79.
     (years)    NDRGVS        76.             74.         72.      74.       73.    74.

     Sex        DRG 79        54.             72.         40.      55.4      55.    57.
     (%male)    NDRGVS        43.             45.4        48.      45.       46.    44.

     LOS        DRG 79                        10.4        12.      10.       11.    10.
     (days)     NDRGVS                         7.4

     Payment    DRG 89        3544            5177        5923     4899     5191    4452
                NDRGVS        1849            2923        3807     2860     3115    2508

     Mortalny   DRG 89                                    24,      12.       13.    9.4
                NDRGVS                                                        6.4
, "   ,'




                                                  endix            1: DRG 79 errors



           Number           Bed size                                                      Weihted ercenta
           (Percent J        oc 1            100- 299              300+          Tota     Sample Discharge Hospital

           Urban              4 (66.          4 (23.              2 (8.                   (21.        (25.       (43.
           Rural              4 (22.          1 (12.              0 (0.                   (17.        ( 9.       (15.

           Teaching                           3 (33.              0 (0.                   (13.        (13.       (10.
           Nonteaching        8 (33.          2 (12.              2 (16.                  (23.        (18.       (23.

           Prom               2 (50.          0 (0.                                       (28.        ( 9.       (25.
           Nonprofit          6 (30.          5 (22.              2 (8.                   (19.4)      (17.       (24.

           Total              8 (33.          5 (20.              2 (8.                   (20.        (17.4)     (25.



                                    endix                 2: DRG 79 errors com arison



           Percent                          Bed size                                Wei    hted    ercenta
                                            ,,100           1 00- 299     300+      Sample         Discharge Hosp

           Urban         DRG 79             66.             23.                         21,          25.       43.
                         NDRGVS             22.             19.            16.          18.          17.       20.4

           Rural         DRG 79             22,             12.                         17.                    15.
                         NDRGVS             23.             16.            22.          21.          20.       21,

           Teaching      DRG 79                             33.                         13.           13.      10,
                         NDRGVS             20.             20.            15.          17.           17.      19.

           Non-          DRG 79             33.             12.            16.          23.           18.      23.
           teaching      NDRGVS             23.             17.            17.          20.           19.      20.

           Prom          DRG 79             50.                                         28.                    25.
                         NDRGVS             23.             18.            18.          20,           19.      21.

           Non-          DRG 79             30.             22.                         19.4          17.      24.
           profit        NDRGVS             23.             18.4           16.          19.4          18.      20.

           Total         DRG 79             33.             20.                         20.           17.      25.
                         NDRGVS             23.             18.            16.          19.           18.      20.
'. '   ,.   (%)
            ($)




                            endix B- 3:   DRG 79 errors b Y"'       atient           demo


                                     Bed size                                Wei hted avera
                                     dOO        1 00- 299   300+             Sample    Discharge Hospnal

            Age        Correct       79.4       78.         75.                77.4         77.   78,
            (years)    Incorrect     84.        81.         71.                81.          77,   81.

            Sex        Correct       50.        75.         43.                55.          57.   57.
            (%male)    Incorrect     62.        60.                            53.          35,   51.

            LOS        Correct                  11.         13.                11.4         11.   10.
            (days)     Incrrect
            Payment    Correct       3303       4985        5933               4899      5075     4267
                       Incorrect     4026       5941        5812               4903      5534     4933

            Mortalny   Correct       12.                     17.4              10.
                       Incorrect                20.         100.               20.          50,   22.
' ,€




                                        endix          C-1: DRG 79 direction of errors


       Number of€        Bed size                                                           Wei     hted    ercenta
       overpayments             ",100            100- 299           300+           Total     Sample Discharge Hospijal
       (Percent)

       Urban                4(100.                4 (100.          2 (100.                   (100)           (100)       (100)
       Rural                4(100.                1 (100.                                    (100)           (100)       (100)

       Teaching                                   3(100.                                     (100)           (100)       (100)
       Nonteaching          8 (100.               2 (100.          2 (100.)                  (100)           (100)       (100)

       Prom                 2 (100.                                                          (100)           (100)       (100)
       Nonprofit            6 (100,               5 (100.          2 (100.                   (100)           (100)       (100)

       Total                8 (100.               5(100.           2 (100.)                  (100)           (100)       (100)




                        endix           C-2: DRG 79 direction of errors comparison


       Percent                                  Bed size                              Wei    hted      ercenta
                                                ",100       100- 299       300+       Sample           Discharge Hospijal

       Urban         DRG 79                     100.        100.           100.             100             100        100
                     NDRGVS                      53.         60.            57.            58.             57.        56,

       Rural         DRG 79                     100.        100.                            100             100        100
                     NDRGVS                      66.         57.             65.           64.             62.        63.
       Teaching      DRG 79                                 100.                            100             100        100
                     NDRGVS                     66.          59.             56.           57.             59.        62.

       Non-          DRG 79                     100.        100.           100.             100             100        100
       teaching      NDRGVS .                    64.         59.            59.            61,             60.        61.
       Prom          DRG 79                     100.                                        100             100        100
                     NDRGVS                      68.         55.           63.             60.             61.        63.
       Non-          DRG 79                     100.        100.           100.             100             100        100
       profit        NDRGVS                      63.         60.            57.            60,             59.        61.

       Total         DRG 79                     100.        100.           100.             100             100        100
                     NDRGVS                      64.         59.            57.            60,             59.        61.
       (%)
       ($)


. I€




                   endix       C-3: DRG 79 direction of errors       buatient              demo


                                        Bed size                       Wei        hted   ercenta
                                        ,,100      100- 299   300+     Sample            Discharge Hospijal

       Age                 Overpay      84.        81.        71.               81.5       777       81.
       (years)             Underpay

       Sex                 Overpay      62.        60.                          53,        35.       51.8
       (%male)             Underpay

       LOS                 Overpay
       (days)              Underpay

       Payment             Overpay      4026       5941       5812              4903       5534      4933
                           Underpay

       Mortality           Overpay                 20.        100.              20.        50.       22.
                           Underpay
. "   . "




                               ependix D- 1:        DRG 79 hospital department making error€


             Coding department          Bed size                                                   Wei        hted     ercenta
             errrs (Percent)        d 00             100- 299              300+           Tota     Sample Discharge Hospita

             Urban                   3 (75.              4(100.            2(100.                      (90.            (95.4)          (87.
             Rural                   3 (75.              1 (100.                                       (80.            (53.            (71.
             Teaching                                    3 (1 00.                                 (100.                (39.            (32.
             Nonteaching             6(75.               2(100.            2(100.                  (83.                (95.            (87.
             Profit                  1 (50.                                                        (50.                (9.             (25.
             Nonprofit               5(83.               5(100.            2(100.                  (92,               (96.             (91.4)
            Total                    6(75.               5(100.            2(100.                  (86.               (95.4)           (87.
            Balance of errors made by hospital billng department.€



                       endix       2: DRG 79 hospital department making error comparison


            Percent of errors by                   Bed size                                 Wei    hted          ercenta
            coding department                      dOO              100- 299    300+        Sample              Discharge Hospital

            Urban              DRG 79              75.              100.        100,             90.                 95.4        87.
                               NDRGVS              89.               88.         90.             89.                 89.         89.
            Rural              DRG 79              75.              100.                         80.                 53.         71.
                               NDRGVS              94.               95.            90.          94.                 93.         94.
            Teaching           DRG 79                               100.                         100                 39.         32.
                               NDRGVS              91.               92.          89.            90.                 91.         91.
            Non-               DRG 79              75.              100.        100,             83.                 95.4        87.
            teaching           NDRGVS              93.               90,         92,             92,                 91.         92.
            Profit             DRG 79              50.                                           50.                             25,
                               NDRGVS              86.              92.4        81.8             89,                 86.         87.4
            Nonprofit          DRG 79          83.                  100.        100.             92.                 96.         91.4
                               NDRGVS          94,                   90.         90.             92,                 91.4        92.
            Total	             DRG 79          75.                  100.        100.             86.                 95.4        87.
                               NDRGVS          93.                   90.         90.             91.                 91,         92,
, "   (%)
      ($)




            Appendix D- 3: DRG 79 hospital department making error by patient
                                          demo


                               Bed size                     Wei hted avera
                               ",100      100- 299   300+   Sample Discharge Hospnal

      Age          Coding      82,        81.        71.      80.4     77,    80.4
      (years)      Biling      89.                            89.      16.4   45.

      Sex          Coding       50.       60.                 46.      32,    45.4
      (%male)      Billng      100.                           100      18.4    51.

      LOS          Coding                                               6.4
      (days)       Billng                                                      4.4

      Payment      Coding      4061       5941.      5812     5054    5541     4951
                   Billing     3921                           3921     722     2023

      Mortalny     Coding                 20.        100.     40.      50,     22.
                   Billng
, ", '€   .'




                                                       endix        1: DRG 79 reasons for errors


                                     Number                                Bed size
                                                                          ",100   1 00- 299   300+         Total (Percent)

                                     Mis-specnication                                                               (40.
                                     Miscoding                                                                      (13.
                                     Resequencing                                                                   (20.
                                     Other                                                                          (26.

                                     Total                                                                         (100.)




                           endix             2: DRG 79 reasons for errors by                    hospital      demog.!


               Number              Mis-specnication Miscoding                Resequencing      Other                   Total
               (Percent)

               ",100 beds                    3( 37.              (12.             (12.              (37,             8 (100.
               100- 299 beds                 1 (20.              (20.             (40.              (20.             5 (100.
               300+ beds                     2(100.            0 ( 0.        0 (0.                  (0.              2 (100.

               Urban                     4( 40.                  (10.        3 (30.                 (20,            10 (100,
               Rural                     2( 40.                  (20.              (0.              (40.             5 (100.

               Teaching                      1 ( 33.           0 ( 0.        2 (66.                 (0.             3 (100.
               Nonteaching               5( 41.                2 (16.              (8.              (33.           12 (100,
               Prom                                            0 ( 0.             (50.             (50.             2 (100.
               Nonprofit                 6( 46.                  (15.4)           (15.4)           (23.            13 (100.
               Total                     6( 40.                2 (13.        3 (20.                (26.            15 (100.
,"
 , , . '' \




                                        endix             3: DRG 79 reasons for errors comparison


              Percent                                      Bed size                                 Wei   hted   ercenta
              distribution                                 ",100           100- 299   300+          Sample       Discharge Hospijal

              Mis-         DRG 79                          37.             20.        100.            58.              56.    44.
              specnication NDRGVS                          49.             44.         49.4           48.              47.    48.

              Miscoding              DRG 79                12.             20.                                                13,
                                     NDRGVS                10.4            14.        11.4            11,              12.    11.

              Resequencing           DRG 79                12.             40.                        17,              18.    20.4
                                     NDRGVS                31.0            24,        24.             27,              25.    28.

              Other                  DRG 79                37.             20.                                         14.    21.3
                                     NDRGVS                                15.        14.             12.              13.    11.




                             endix       E-4: DRG 79 reasons for errors by patient                                     demo


                                                Mis-specnication         Miscoding      Resequencing             Other

              Age (years)                                                  84,€              89.                 83.
              Sex (% male)                          50,                    100.€             33.                 66,
              LOS (days)€
              Payment ($)                           4956                   3926€             6126                3823
              Mortalijy (%)                         33.                    50.€
         \ !:,€




j-i .
        \I



                                             endix              1: DRG 79 corrected relative weights


                   Relative weight                     Bed size                                                 Average-
                                                       ,,100                    100- 299            300+        Total
                      eranp.
                   Paid                                  7795                    7795               1.   7795     7795
                   Correct                               4834
                                                       1 .                       5709                    6933     5839
                   Diference                             2961                    2086                    0862     1956
             v-.
                   Paid                                42. 7080                 44. 4875            44. 4875    131. 6830
                   Correct                             35. 6016                 39. 2725            44. 3325    117. 2086
                   Diference                               1064                     2150                1550    14.4744


                                              endix             2: DRG 79 corrected reimbursement


                                                       Bed size                                                 Average-
                                                       ,,100                    100- 299            300+        Total
                   Avera
                   Paid                                  506                      755                    226      906
                   Correct                               756                     4198                    973      366
                   Diference                             750                      557                    253    539

                   Total

                   Paid
                               108 137                  118. 885            125,420     363 009
                   Correct
                             90. 143                 104 949             119. 344    323. 108
                   Diference
                              993                   13. 936                 075       901

                   Overpayment rate (%)                16.                      11.

                   . Discharge weighted.


                                               endix             3: DRG 79 estimated cost of errors

                                Fiscal Year                    Reimbursement               Overpayment
                                                                 ($ milion) €                ($ milion) €



                             1984                           129.                             12.
                             1985                           291.                             28.
                             1986                           423.                             41.
                             1987                           591.                             57.4
                             1988                           617.                             59.
                             1989 est.                      793.                             77.
                             1990 est.                      921.                             89.
                   Ovrpyment calclated as 9. 7 percent of reimbursment
                   Estimates based on linear regression.
,'        .\
     1" , I . .€




                              e,endix G- 1:         Correct MDC for discharges miscoded to DRG 79


                   Number                                   Bed size
                                                           ,,100 100- 299           300+   Total   (Percent)

                   01:     Nervous system                                                             (13.
                   03:     Ear. nose. & throat                                                        (20.
                   04:     Respiratory                                                                (33.
                   06:     Digestive                                                                  ( 6.€
                   07:     Pancreas and liver                                                         ( 6.€
                   10:     Endocrine and metabolic                                                    ( 6,€
                   11 :    Kidney and urinary tract                                                   ( 6.€
                   23: After care€                                                                    ( 6.€


                           Total                                                                     (100.



                              e,endix G- 2:       Correct DRG for discharges miscoded to DRG 79


                   Number                                   Bed size
                                                           ,,100 100- 299           300+   Total   (Percent)

                   73: Other ear.    nose, throat                                                     (20.
                   89: Simple pneumonia€                                                              (13.
                   96: Bronchitis. asthma                                                             (13.
                           Other                                                                      (53.

                           Total                                                                     (100.




                                     ndix        3: Principal diagnoses correctly biled as DRG


                   Disorder                                    Number       (Percent)

                   Suspected tuberculosis                                   ( 1.7)€
                   Tuberculosis not otherwise specitied                     ( 6.€
                   Klebsiella pneumonia                                     (18,
                   Pseudomonas pneumonia                                    (16.
                   Staphylococcal pneumonia                                 (16,
                   Aspiration pneumonitis                                   (32,
                   Empyema                                                  ( 5,€
                   Lung abscess                                             ( 1.€


                   Total                                                    (100.
  , ./       ,€
.\ J . '"€




                             ependix G-4: Principal €
                                                        dia   noses     incorrectly biled as DRG 79


                  Disorder                              Number        (percentj
                  Volume depletion€
                  Transient ischemic attack€
                  Acute bronchnis€                                    (13.
                  Pharynx not otherwise spec ied

                  Pneumonia not otherwise specified€                  (13.
                  Esophageal stricture€
                  Acute pancreatnis€
                  Urinary tract infection€
                  Coma
                  Foreign body in larynx€                             (20.
                  Observation

                  Total                                               (100,
. - ..   (€




                                            endix             1: DRG 79 clinical review


              Number             Bed size                                                        Wei hted avera
              (Percent)          ..00               1 00- 299           300+            Total    Sample Discharge Hospital

              Unnecessary             (4.               (0.           4 (16.                          (6,        (7.          (4.
              admissions

              Poor quality            (4.           3 (12.                 (8,                        (8.        (8.          (7.
              care
              Premature           0 (0.                 (0.                (0.                        (0,        (0,          (0.
              discharge




                                 endix H-2:            DRG 79 clinical review com arison


              Percent                           Bed size                                   Wei    hted      ercenta
                                                ..00            100- 299         300+      Sample           Discharge Hospijal

              Unnecessary DRG 79                                                 16,
              admissions NDRGVS                 12.             10.                             10,            10.      11.

              Poor quality   DRG 79                             12,
              care           NDRGVS             11.4

              Premature      DRG 79
              discharge      NDRGVS                                               0.4                                    1.4
